CERTIFICATE OF WORD COUNT
NO. TBD
In Re JH by and through Conservator Betty Harris,
Petitioner,
v.
Williamson County et al.
Respondents.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the IN RE JH BY AND THROUGH
CONSERVATOR BETTY HARRIS PETITION FOR WRIT OF CERTIORARI contains 8180 words, including the
parts of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus

September 11, 2020

SCP Tracking: Crain-5214 Maryland Way, Ste 402-Cover White

